<html>
<title> - STATES' ROLE IN PROTECTING AIR QUALITY: PRINCIPLES OF COOPERATIVE FEDERALISM</title>
<body><pre>[Senate Hearing 116-6]
[From the U.S. Government Publishing Office]





                                                          S. Hrg. 116-6
 
   STATES' ROLE IN PROTECTING AIR QUALITY: PRINCIPLES OF COOPERATIVE 
                               FEDERALISM

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 5, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            ______
 
              U.S. GOVERNMENT PUBLISHING OFFICE 
 35-947 PDF              WASHINGTON : 2019       
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                     MIKE BRAUN, Indiana, Chairman
JAMES M. INHOFE, Oklahoma            SHELDON WHITEHOUSE, Rhode Island, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE ROUNDS, South Dakota            BERNARD SANDERS, Vermont
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
JOHN BARRASSO, Wyoming (ex officio)  TAMMY DUCKWORTH, Illinois
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 5, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Braun, Hon. Mike, U.S. Senator from the State of Indiana.........     2
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     3

                               WITNESSES

Glatt, Dave, Chief of the Environmental Health Section, North 
  Dakota Department of Health....................................     6
    Prepared statement...........................................    10
Keogh, Becky, Director, Arkansas Department of Environmental 
  Quality........................................................    14
    Prepared statement...........................................    17
Segall, Craig, Assistant Chief Counsel, California Air Resources 
  Board..........................................................    99
    Prepared statement...........................................   101


   STATES' ROLE IN PROTECTING AIR QUALITY: PRINCIPLES OF COOPERATIVE 
                               FEDERALISM

                              ----------                              


                         TUESDAY, MARCH 5, 2019

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Mike Braun 
(Chairman of the Subcommittee) presiding.
    Present: Senators Braun, Whitehouse, Cramer, Rounds, 
Sullivan, Boozman, Ernst, Cardin, Booker, Markey, Barrasso, and 
Carper.
    Senator Braun. Thanks to everyone for being here today. 
This hearing of the Clean Air and Nuclear Safety Subcommittee 
is called to order.
    First, I am going to turn to Senator Barrasso to make a few 
comments.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    Before we begin, I just want to take a moment to 
congratulate Senator Braun on holding his first hearing as the 
Chairman of the Clean Air and Nuclear Safety Subcommittee. He 
just joined the Senate a few months ago, and he has already 
established himself as a leader.
    Senator Braun, I know you share my commitment to pursue 
innovative, practical solutions to improve the air that we 
breathe, while allowing for our economy to grow, so I look 
forward to supporting your work and the work this Subcommittee 
will accomplish with you at the helm.
    Today's hearing addresses a critical subject: States and 
Washington working together to protect our environment.
    When I go back to my home State of Wyoming, I hear about 
the improved relationship that regulators and businesses have 
with the Environmental Protection Agency since President Trump 
has taken office.
    So, Chairman Braun, thank you for holding this important 
meeting.
    Thank you.

             OPENING STATEMENT OF HON. MIKE BRAUN, 
             U.S. SENATOR FROM THE STATE OF INDIANA

    Senator Braun. You are welcome.
    I will begin by recognizing myself for a brief opening 
statement before turning the floor over to Ranking Member 
Whitehouse for 5 minutes, then we will hear from our panel of 
experts.
    I come to this Subcommittee not just as a conservationist 
and an advocate for protecting our natural resources, but as 
someone who knows how important clean air is from firsthand 
experience from being a farmer and an outdoorsman. Way back in 
my hometown of Jasper, Indiana, when I was 16 years old, I took 
slides of our factories spewing out coal dust into our 
community, so my interest in this has deep roots.
    Respecting and preserving our rich natural resources has 
been a priority of mine since I was young; even started the 
ecology club back in high school. Excited to be able to work 
with my colleagues on this Subcommittee and with the Trump 
administration to protect our environment in an economically 
responsible way.
    The purpose of this hearing is to hear your experiences 
implementing the concept of cooperative federalism under the 
Clean Air Act in hopes of providing this Subcommittee and the 
public at large with a greater understanding of the 
opportunities and challenges facing States as they engage with 
the EPA to implement Clean Air Act regulations.
    On a subject not with air, but 2 or 3 weeks ago, when it 
came to waters--waters of the U.S.--I had three different 
farmers ask me about how they navigate through the web of 
regulations in the simple process of managing their ditches. 
They were confused by the intertwining of what they think is 
there, and how it is even being implemented at the State level.
    Despite what some stories might suggest, we have seen 
tremendous air quality improvements in the U.S. since Congress 
passed the Clean Air Act of 1970. At the same time, our economy 
has grown. U.S. GDP has grown 324 percent since 1970, while 
emissions of major air pollutants have dropped precipitously. 
Over that same timeframe, emissions of six common pollutants--
lead, ozone, particles, carbon monoxide, nitrogen dioxide, and 
sulfur dioxide--have fallen 73 percent.
    For much of the history of the CAA, this was achieved 
through rulemaking, where input from industry, the States, and 
the Federal Government was carefully considered to reach 
attainable targets.
    Despite these successes, the previous Administration eroded 
this doctrine, creating inefficiencies and waste at both the 
Federal and State levels. The Obama EPA mandated CAA 
regulations with minimal collaboration with the States. The 
regulations also ignored and exaggerated the feasibility of 
commercially available control technologies.
    This led to a lack of regulatory coordination between 
States and the EPA and some jurisdictional lawsuits resulting. 
Most notably, 26 States went to the Supreme Court and asked for 
relief from the Clean Power Plan, citing EPA's lack of 
authority to issue that rule. In an unprecedented rule, the 
Court granted the States' request and stayed the rule.
    The Trump administration and the new EPA Administrator, 
Andrew Wheeler, have recognized the need to reconsider 
controversial rules that have went way beyond their original 
intended authority. This Administration is committed to 
listening to the concerns of the States.
    Our expert witnesses today are State air officials who can 
bring an on the ground perspective as to how the decrease in 
Federal litigation tying up State resources has affected their 
important work. North Dakota, in an example that we will hear 
about today, has saved half a million dollars in litigation 
annually and can, instead, redirect that money toward 
environmental protection.
    My regulatory philosophy is that government works best at 
the local level. I have believed that my entire life. I think, 
if there is regulation needed, it is best to implement it when 
you are closest to the people, where those being governed have 
skin in the game, and I applaud Administrator Wheeler's efforts 
to implement the law as intended by Congress, ensuring that 
those who make regulatory decisions are members of the 
communities that will live under those regulations.
    I look forward to hearing from our panel of expert 
witnesses today and again would like to emphasize my passion 
for this critical issue.
    Now I would like to recognize Ranking Member Senator 
Whitehouse for his opening statement.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Mr. Chairman, and 
congratulations on your maiden hearing as Chair.
    Almost 11 months ago, this Subcommittee held a hearing on 
the same subject that brings us here today, cooperative so 
called federalism. At that hearing, we heard powerful testimony 
from the lead environmental officials in California and 
Delaware who described the damage that rising seas driven by 
carbon pollution are causing in their States. The witnesses 
from Delaware also described the struggle of reducing air 
pollution when much of it blows in from power plants in upwind 
States.
    I lamented that then-Environmental Protection Agency 
Administrator Scott Pruitt's governing philosophy wasn't so 
much cooperative federalism as it was cooperative corporatism, 
serving the interests of industry.
    So here we sit, 11 months later, back to take testimony on 
the same subject. It occurs to me to wonder what the point is 
to these hearings.
    What has EPA done with respect to air pollution since our 
last hearing, held on April 10, 2018?
    Well, April 13, 3 days after the last hearing on this 
subject, EPA issued a final notice denying a petition filed by 
Connecticut under the Clean Air Act asking EPA to make a 
determination that emissions from a Pennsylvania power plant 
were responsible for its inability to meet air quality 
standards.
    So much for EPA concern about the problem of cross-State 
air pollution.
    On August 2nd, EPA and the National Highway Traffic Safety 
Administration announced a proposal to freeze greenhouse gas 
emissions and corporate average fuel economy standards for cars 
and light trucks. This proposal would result in additional 
carbon pollution of almost 900 million metric tons for model 
years 2021 through 2025. That is the equivalent of adding 
almost 200 million cars to the road for 1 year and represents 
almost 20 percent of U.S. total carbon emissions in 2018.
    Who at EPA was paying attention when California and 
Delaware discussed what carbon pollution is doing to coastal 
States?
    On August 21st, EPA announced a proposal to replace the 
Clean Power Plan. This proposal would result in additional 
carbon pollution of between 20 million and 61 million short 
tons per year over the period 2025 to 2035, the equivalent of 
adding between 4 million and 12 million cars to the road.
    Again, was anyone at EPA paying any attention when 
California and Delaware discussed what carbon pollution is 
doing to coastal States?
    On September 11th, EPA announced a proposed rule to weaken 
monitoring and repair rules for methane leaks at oil and gas 
facilities. This proposal would result in additional carbon 
pollution of 380,000 short tons of methane over the period 2019 
to 2025 and would create downwind air pollution problems, the 
equivalent of adding almost 2 million cars to the road for 1 
year.
    Again, was anyone at EPA paying the slightest attention to 
those States in our last hearing on this subject?
    On October 5th, EPA denied four petitions by Delaware and 
one by Maryland asking it to make a final determination that 
out of State power plants were responsible for their inability 
to meet air quality standards.
    On December 6th, after all the work members of this 
Committee have done to encourage carbon capture technologies, 
EPA proposed eliminating carbon capture and storage technology 
as the best system of emission reduction for new and modified 
coal fired power plants.
    On December 27th, EPA proposed eliminating the legal 
justification for rules limiting the emissions of mercury and 
other hazardous air pollutants that Rhode Islanders must live 
with.
    On February 21st, 2019, the Trump administration announced 
that it would end negotiations with California over the auto 
rule.
    In short, EPA completely ignored our last hearing on this 
subject.
    What else since April 10th? Well, there is the ever growing 
mountain of evidence of EPA's cooperative corporatism. Former 
EPA Administrator Scott Pruitt's litany of scandals, many of 
them related to improper relationships with the fossil fuel 
industry he was supposed to be regulating, became so long that 
he was finally forced to resign. After his resignation, he was 
given a job by a coal baron. The revolving door spins.
    Meanwhile, who did we confirm to replace Pruitt? Through 
the revolving door came former coal lobbyist Andrew Wheeler. We 
shrugged off the fact that the U.S. Chamber of Commerce, the 
National Association of Manufacturers, and two shadowy fossil 
fuel industry front groups--the Utility Air Regulatory Group 
and the American Council for Clean Coal Electricity--got 
essentially exactly their proposal to replace the Clean Power 
Plan. And guess what? Bill Wehrum, the head of EPA's Air 
Office, who was responsible for this proposal, used to have the 
Utility Air Regulatory Group as his client. The revolving door 
just keeps spinning.
    We turned a blind eye to Marathon Petroleum's role undoing 
greenhouse gas emission and fuel economy standards for 
automobiles. Various front groups that received a minimum--a 
minimum of $196 million from fossil fuel industry interests all 
lobbied to roll back the standards, as did Valero, Endeavor, 
Koch Companies, and the American Fuel and Petrochemical 
Manufacturers.
    So, forget federalism at EPA. It has become evermore 
apparent that the Trump EPA has zero intention of listening to 
the States and every intention of kowtowing to the fossil fuel 
industry.
    What we ought to be holding hearings on is the capture of 
EPA by the industry it is supposed to regulate but instead has 
been turned into its toy and play thing.
    Thank you, Mr. Chairman.
    Senator Braun. You are welcome.
    As you can see from the opening statements, we are going to 
have a robust conversation here today. That is good.
    We will now hear from our witnesses: Dave Glatt, Chief of 
the Environmental Health Section, North Dakota Department of 
Health; Becky Keogh, Director, Arkansas Department of 
Environmental Quality; Craig Segall, Assistant Chief Counsel, 
California Air Resources Board.
    I am very pleased that two of our witnesses today have 
representatives from States here on our own Subcommittee. I 
will start with Senator Cramer to introduce our witness from 
North Dakota, and then, after that is done, Senator Boozman 
will introduce our guest from Arkansas.
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman.
    And thank you to all the witnesses for being here, and 
thanks for inviting Dave to testify today.
    Dave, I think North Dakota has an exceptional story to tell 
regarding the subject of today's hearing, and I am looking 
forward to your testimony.
    I really can't think of anybody better prepared than Dave 
to testify on this topic. Dave is a native North Dakotan. He 
received both his bachelor's degree in Biology and his master's 
degree in Environmental Engineering from North Dakota State 
University, famous for lots of things, not the least of which 
is seven out of the last eight national football championships; 
and we celebrated that yesterday with the President in the 
White House, so it was a great day.
    So, thanks for being here, Dave.
    But Dave spent 35 years to this point, I think, at least, 
at the North Dakota Department of Health. He has been the Chief 
of the Environmental Health Section for the Department for the 
last 16 years. Over the course of 35 years, obviously, he has 
worked with lots of Administrations of different political 
stripes, different relationships, different philosophies, and 
all the while Dave, I can assure you, has had North Dakota's 
air, water, land resources at the heart of every part of his 
job, and we have seen that.
    When I was a regulator in North Dakota on the Public 
Service Commission, we always had great confidence that Dave 
was going to look out for the air that we all breathe because 
he was looking out for the air that he breathes.
    So, with that perspective, Dave, thank you for being here. 
We look forward to your testimony.
    Thank you, Mr. Chairman.
    Senator Braun. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I want to give a special thanks to Becky Keogh of Little 
Rock, Arkansas, for being here today to testify. Becky has an 
impressive job history which has made her uniquely qualified at 
this hearing to testify.
    Becky served as the Director of the Arkansas Department of 
Environmental Quality, or ADEQ, since 2015. Prior to her role 
as Director, Mrs. Keogh served as Deputy Director of ADEQ from 
1996 to 2006. She was subsequently appointed to serve on the 
Arkansas Geological Commission from 2006 to 2009.
    Becky is currently the President of the Environmental 
Council of the United States, which we are very proud of. An 
Arkansas native, Director Keogh has a degree in chemical 
engineering from our mutual alma mater, the University of 
Arkansas. We can't brag that we are doing very well in football 
right now, but we are rebuilding.
    As an Arkansas native, we really do appreciate all that she 
has done and appreciate her being here today and really look 
forward to your testimony.
    Thanks for all your hard work in so many different areas 
for the people of Arkansas.
    Senator Braun. Thank you, Senator Boozman.
    Finally, Craig Segall is the Assistant Chief Counsel at the 
California Air Resources Board, where he is responsible for 
litigation and implementation of many of the Board's climate 
and clean air programs. Previously, he was a staff attorney at 
the Sierra Club, where he litigated many of the issues we will 
discuss today.
    Mr. Segall is also a former law clerk of Hon. Marsha Berzon 
of the U.S. Court of Appeals for the Ninth Circuit. He is a 
graduate of the University of Chicago and of the Stanford Law 
School.
    Thank you for being here today.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record. 
Please keep your statements to 5 minutes so that we may have 
time for plenty of questions.
    Look forward to hearing your testimony, and we will begin 
with Mr. Glatt.

  STATEMENT OF DAVE GLATT, CHIEF OF THE ENVIRONMENTAL HEALTH 
           SECTION, NORTH DAKOTA DEPARTMENT OF HEALTH

    Mr. Glatt. Well, thank you, Chairman Braun, Ranking Member 
Whitehouse, and members of the Committee. Thank you for giving 
me this opportunity to testify in front of you this morning.
    My name is Dave Glatt. I am a registered professional 
engineer, Environmental Health Section Chief for the North 
Dakota Department of Health. We are North Dakota's primary 
environmental protection agency, responsible for implementation 
of many of the U.S. EPA federally delegated programs such as 
the Clean Air Act.
    As background, North Dakota is a mostly rural agricultural 
State which leads the Nation in the production of many 
agricultural crops. In addition, we are second in the Nation 
for oil production, and we are a net energy exporter 
distributing energy throughout the region following an all of 
the above philosophy. Utilizing abundant coal, oil, natural 
gas, and renewable resources, the State is routinely recognized 
for its great air quality, high environmental program 
compliance, and overall quality of life.
    I am here today to briefly discuss my observations after 35 
years working with the Department of the Federal and State 
working relationship. At times it is referred to as a 
relationship founded in cooperative federalism doctrine where, 
in principle, the Federal Government works with States as equal 
partners in the pursuit of environmental and public health 
protection.
    Under this doctrine, the Federal Government sets the 
standards to provide national consistency, and the States are 
tasked with the implementation of these standards with Federal 
oversight.
    Due to the diverse nature of the Nation where climate, 
geology, topography, population, cultural, and political 
elements vary widely, it is critically important that States 
take a lead role in the implementation of environmental 
programs. In fact, this doctrine has matured over the years to 
where States are directly responsible for over 90 percent of 
program implementation and enforcement activities.
    Where States are the primary implementers of programs, 
innovative and cost effective approaches to environmental 
protection are the rule and not the exception. We live in the 
communities we regulate, where transparency, responsiveness, 
accessibility, and accountability are not just buzzwords, but 
expectations of the public we serve.
    Working at the State agency in various capacities, I have 
observed the following:
    Where cooperative federalism is embraced by both EPA and 
the States with respect to air quality, the result is relevant, 
lasting, and cost effective environmental protection solutions. 
In our State, under this doctrine, Superfund sites have been 
cost effectively closed in a timely manner, use of compliance 
assistance technologies such as optical gas imaging cameras 
were introduced for use in oil fields, and EPA acknowledged and 
adopted a State developed minor source air permitting program 
for oil wells that enhanced EPA's regulatory presence on Tribal 
lands. Where cooperative federalism flourishes, relevant and 
meaningful environmental public health protection follows.
    Since the establishment of EPA, States have consistently 
and methodically increased their technical expertise and 
competency to the point where they are at par or exceed the 
Federal Government in many areas of environmental protection. 
The States excel in areas where they follow good science and 
the law, and their technical expertise is applied to State 
specific environmental conditions or industrial operations.
    States' direct involvement with environmental challenges 
has also identified certain areas where their expertise may be 
limited, and in these areas Federal input is appreciated and 
needed, such as in the establishment of national ambient air or 
drinking water standards.
    Federal regulatory overreach that does not follow a 
cooperative federalism doctrine or ignores State specific 
concerns has resulted in legal challenges and considerable 
expenditures of State dollars. Where EPA has not taken the time 
to listen to State specific challenges and has, instead, 
created numerous--sometimes onerous--regulations while treating 
States as a singular entity has resulted in less cooperation 
and more litigation.
    During the past Administration, North Dakota expended over 
$700,000 challenging Federal environmental regulations such as 
the Clean Power Plan that did not account for the specific 
nature of the environment or industry, or the direct and 
indirect impact on the citizens of the State. The State viewed 
these regulations as an arbitrary Federal regulatory overreach 
with little or no environmental benefit.
    Our expenditures spent on litigation in the current 
Administration is a little over $100,000, which has been 
primarily expended to address the actions from the previous 
Administration. In the current working relationship with our 
Federal partners, there has been more listening and cooperation 
than prescriptive directives. We generally feel that excessive 
funds spent on litigation would be better spent on 
environmental compliance and improvement actions.
    It is important to note that the environmental quality 
remains at high levels, and compliance rates have not decreased 
in the State with the more open, flexible, and cooperative 
approach with this Administration.
    States are the constant in any Administration change. Each 
new Administration typically starts out declaring a new day and 
a new way of environmental protection. It has been my 
experience when the Federal partner has outlined a new approach 
to environmental regulation, they believe it will be 
improvement from previous actions.
    However, these declarations seem to discount the actions by 
the States and the unique, necessary role they play in 
meaningful environmental protection. It has been my experience 
that the Federal regulatory pendulum can swing widely from 
Administration to Administration, while the State regulatory 
pendulum moves less radically. Although States do not agree on 
every issue, the foundation of all State level action has 
historically been accessible, accountable environmental and 
public health protection.
    Last, the right of States to implement desired 
environmental protection and controls must be applied 
judicially with great responsibility and caution. A State's 
quest to improve ``in State'' environmental challenges should 
not negatively impact sovereign State jurisdictions outside its 
borders. Negative regulatory impacts can include additional 
cost to an adjoining State with no perceived or actual benefit. 
We have experience with issues such as this as it related to 
energy production and how an adjoining State attempted to 
direct development and industry standards in North Dakota.
    This concludes my testimony. I will stand for any questions 
at the appropriate time, Mr. Chairman.
    [The prepared statement of Mr. Glatt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Braun. Thank you, Mr. Glatt.
    Dr. Keogh.

              STATEMENT OF BECKY KEOGH, DIRECTOR, 
          ARKANSAS DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. Keogh. Chairman Braun and Ranking Member Whitehouse and 
Subcommittee members, I am Becky Keogh. I am the Director of 
the Arkansas Department of Environmental Quality, and it is my 
great honor to appear before this Committee. I bring greetings 
from Governor Asa Hutchinson and the rest of our great natural 
State, and a warm hello to you from home, Senator Boozman.
    Only 3 years ago I was here seeking this body's assistance 
in improving the relationship between the Federal Government 
and the States. While cooperative federalism called for States 
to be partners with the EPA, functionally, States were more 
pawn than partner. Not only were States excluded from 
environmental policy solutions, we weren't even part of the 
equation.
    I am here once again representing Arkansas, and much has 
changed. In addition to my Arkansas duties, I now serve as the 
President of the Environmental Council of States. Since my 
first testimony, States have gone from asking for a seat at the 
table to a discussion of what happens when we arrive. We States 
are now advocating for a standard operating procedure of shared 
decisionmaking, shared protection, shared problem solving, and 
shared programmatic development between States and EPA.
    When federalism is at its purest, it is also at its rawest. 
State regulatory agencies and EPA are required to 
simultaneously regulate from the position of sovereign and 
subordinate, and that is compounded by the dynamic and 
unpredictable subject matter of which we are asked to regulate. 
Often, our most challenging days are ones that cannot be 
imagined just the day before.
    Protecting and preserving the environment requires that we 
environmental regulators stand at the ready to respond to 
edicts such as acts of Congress and natural disasters. Our 
challenges are at the same time unique to our locality, but yet 
universal to our larger national community, and each answer is 
both a part and a whole. Each of our voices is essential to 
effective management of our Nation's air, land, water, and 
wildlife.
    In order to understand and navigate the future relationship 
with EPA, we must have an understanding of the past, and Mr. 
Chairman, I understand that you have experience in a successful 
logistics company, and I am sure, in working extensively with 
vehicles, you have noticed the size of the windshield in 
relationship to the rearview mirror. There is a reason the 
windshield is larger than the rearview mirror. Certainly, the 
future is bigger than the past, but the rearview mirror serves 
an undeniable purpose. In order to understand where we are 
going, we must first understand where we have been.
    Missteps of the past have a way of catching up to us after 
we have long since passed them by, and just like a rearview 
mirror, these objects may be closer than they appear. However, 
by looking through the windshield we can see a path to 
innovation and exploration, and the path forward should be 
paved with greater responsibility and flexibility at the State 
level.
    The argument for decentralization is not an argument for 
eliminating the Federal role in environmental protection. 
Rather, it is an argument for redefining the Federal-State 
balance. States today bear little resemblance to States in the 
1960s, and our role in environmental protection has 
fundamentally changed. We have been transformed by growth of 
professional staffs, vigorous two-party systems, use of 
referenda and initiatives to make policy, procedural 
requirements that assure greater public participation in 
decisions. Many aspects of environmental protection have also 
been assimilated into State and local politics.
    Seventy percent of important environmental legislation 
enacted by the States now has little or nothing to do with 
national policy, and only 25 percent--approximately $2.8 
billion--of the total amount States now spend annually on 
environment and natural resources actually come from 
Washington. State and local governments are responsible for 
nearly all the enforcement of national environmental laws and 
continue to dominate decisions in the areas of land use and 
waste disposal.
    The benefits of a State centered environmental protection 
future are apparent if you peer through the windshields of the 
States. In fact, at the Arkansas Department of Environmental 
Quality, we do most things that were once exclusively the role 
of the Federal Government: we operate 13 federally delegated 
environmental programs; we have 300+ engineers, ecologists, 
geologists, biologists, lawyers, accountants, and 
epidemiologists; we operate a state of the art lab that informs 
our work.
    Air quality in Arkansas is among the best in the country. 
The entire State is in full attainment of all national ambient 
air quality standards, and we are on track for achieving 
regional haze visibility goals. Arkansas takes the lead in 
implementing protective and timely permitting processes, brings 
certainty to our businesses as they make substantial 
investments. Our single permitting system reduces duplication 
and ensures swift issuances. Advancements in technology and 
transparency through e-permitting, advanced monitoring, and 
transformation efforts resulted in ADEQ becoming one of the 
Nation's leaders in reduced backlog, lowest permitting costs, 
and achievement of air quality standards.
    Under Governor Hutchinson's transformation of government, 
the Arkansas Energy Office has also been aligned with the 
Arkansas Department of Environmental Quality, and in 
administering energy advancement and efficiency programs, 
Arkansas is seeking record investment in solar energy 
investments and energy performance solutions, realizing 
reductions in greenhouse gas emissions well beyond those that 
were mandated under previous regulatory agendas.
    And the success of Arkansas is not isolated. All States 
have unique regional experience and successes that allow us to 
better deal with new and unforeseen environmental challenges. 
Just this month, we asked and received assistance from the 
State of Texas and Louisiana and from our State's National 
Guard's Departments of Health, Ag, and Forestry to help us 
extinguish an expansive underground fire that is threatening 
the air and water quality in one of our most vulnerable 
Arkansas communities.
    These unique environmental challenges that we are battling 
in Arkansas remind us that even the most robust environmental 
program can, at the same time, be expert and novice depending 
on the specific challenge. That is where the EPA could be a 
tremendous difference maker for overall environmental 
landscape. But frustrating to both of us, the EPA has been 
limited by current law in what they are able to do to respond 
to our call.
    So, looking through that expansive windshield in the not so 
far distance of the road, we must find a better path. The role 
of States has evolved, and there has not been a substantial 
modification to the Federal role. Why not use the wealth of EPA 
resources, both technical and financial, to help States fill 
gaps? Consider allowing the EPA the flexibility to offer 
support that is not duplicative, but instead niche in nature. 
Consider their primary charge as a supporting role. No matter 
how robust and progressive in their programs, States benefit 
from a central source of support.
    In conclusion, I am happy to report that change is in the 
horizon. Last week I was informed that newly confirmed 
Administrator Wheeler will be meeting with Arkansas tomorrow to 
discuss our road ahead. We will have one eye on the rearview 
mirror to remember where we have been, but our momentum and 
energy will be focused through the windshield at what lies 
ahead, and I commend to him, as I do to you today, as I 
conclude, the wisdom of Winston Churchill: The pessimist sees 
the difficulty in every opportunity; the optimist sees the 
opportunity in every difficulty.
    Thank you very much.
    [The prepared statement of Ms. Keogh follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    




    Senator Braun. Thank you.
    Mr. Segall.

STATEMENT OF CRAIG SEGALL, ASSISTANT CHIEF COUNSEL, CALIFORNIA 
                      AIR RESOURCES BOARD

    Mr. Segall. Thank you, Chairman, Ranking Member, members of 
the Subcommittee. I am glad to be with you today.
    I am Craig Holt Segall, Assistant Chief Counsel of the 
California Air Resources Board. We are one of the oldest and 
largest environmental bodies in the country and in the world. 
We are also working on some of the hardest problems, given 
California's tens of millions of people live in deep valleys 
and desperately need protection from difficult air quality and 
pressing climate change.
    I am going to make three points to you today that are 
elaborated in my written testimony.
    The first of those points, as we heard from the Chair and 
from my co-panelists, is that the Clean Air Act is built on a 
cooperative federalism framework. In its very revision, it 
recognizes two critical points that we have talked a bit about 
already today: first, that the States need to be the primary 
regulators, but second, that they need a strong and consistent 
Federal partner that supports their work to protect their 
people.
    Now, a hallmark of that program is the Clean Air Act's 
vehicle programs. California has been regulating vehicle 
emissions since before there was a U.S. EPA or this version of 
the Clean Air Act, and the Act recognized that treating 
California and the many States that have joined it functionally 
as a laboratory for innovation.
    We have wound up commercializing technologies in cars that 
today are standard--the check engine light, the catalytic 
converter. The list goes on. And as we have added millions of 
cars and millions of people to our State and the States around 
the country, we have seen dramatic increases in air quality 
through the shared back and forth collaboration in Republican 
administrations and Democratic administrations on these 
critical issues.
    The net result, as the Chair alluded to, has been dramatic 
decreases in air pollution, although it remains a pressing 
problem, and enormous benefits. According to one peer reviewed 
study that U.S. EPA itself produced, we are looking at about 
$20 trillion--with a T--in public health benefits as a result 
of the Clean Air Act since 1990 to only several billions in 
costs, about a 40:1 benefit to cost ratio.
    My second point--and this is critical--is that all of that 
is at risk today as a result of this Administration, which is, 
frankly, treating States with contempt. Again, my core example 
would be the vehicle program. The Trump administration 
announced some weeks ago that they stopped negotiating with 
California. The truth is they never started. They offered us 
some meet and greets. They showed no interest at all in 
maintaining the program that has now been running for multiple 
decades, in terms of greenhouse gases for nearly a decade 
successfully, and supported by an over 12,000-page engineering 
analysis we developed jointly with them for years.
    Instead, in the interest of policymaking by Tweet, we saw a 
sudden reversal and a complete refusal to engage with any of 
the tech-
nical underpinnings of that role. Indeed, they refused to give 
us even the most basic technical information. We had to FOIA 
them. They still haven't even answered that FOIA.
    Bottom line, it has been a frozen process, an ideological 
one, and it is not rooted in science. EPA's own experts have 
published in the journal Science condemning their approach.
    We were able to rerun as many of their numbers as we could 
on the basis of their partial and spotty record. Truth is their 
proposal would result in $168 billion in costs to the country, 
conservatively, throw the auto industry into chaos, basically 
blow up public investments in battery systems and 
electrification and protecting the air, and add an enormous 
amount of air pollution.
    This is a huge unfunded mandate for the States because 
functionally it means that we will be unable to meet our 
federally mandated air quality standards, much less our State 
goals, our State climate targets, and move forward 
progressively on modernizing the industry. It is, frankly, a 
disaster, and it is only the tip of a rapidly melting iceberg.
    Folks have alluded to the Clean Power Plan, which had 
enormous amount of State flexibility. The Administration's 
replacement somehow manages to actually increase power plant 
emissions. And the list goes on.
    The Ranking Member alluded to some of these rollbacks. I 
needn't rehearse all of them. But we have seen systematic 
assaults in toxics protections, on air quality planning 
standards, even on something as basic as wood stove pollution. 
You know, rollback after rollback after rollback, all driven by 
an Administration so ethically corrupt that we have already 
lost one EPA administrator. We have never seen this in working 
with U.S. EPA under any Administration, this wholesale agency 
capture.
    And that brings me to my third point. This isn't just a 
public health catastrophe. It is not just risking our progress 
on climate change when we have only a decade left to change 
course. It is a rule of law problem. What we are seeing is an 
agency that is ignoring the statute and the cooperative 
federalism framework set forward by the Article 1 Congress that 
is divorced from the factual record, and it is treating the 
States not as co-sovereigns with whom it has partnered now for 
going on half a century, but as interest groups to be swept 
aside while it increases the profits of narrow sectors of the 
economy at enormous cost to our economies, to our health, and 
to our people.
    What I would ask of this Subcommittee and of Congress is to 
reassert your prerogative in oversight and in caring for public 
health and call the agency to task. There is not much time 
left. The vehicle rollback will be finalized in the coming 
months. Rollback after rollback is coming. We need your help, 
and we need it now.
    Thank you.
    [The prepared statement of Mr. Segall follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Braun. Thank you.
    Thank you, witnesses, for your testimony.
    We will now turn to the Senators here for questions.
    I am going to start by recognizing myself with 5 minutes, 
and we want to stick as close as we can to the 5 minutes.
    This is for Director Keogh and Mr. Glatt.
    The EPA, under the Obama administration, in my opinion, 
failed to treat States as co-sovereigns in protecting the 
environment. Can you speak as to how, in your States, you have 
seen that rightful responsibility be returned to the States?
    Start with you, Mr. Glatt.
    Mr. Glatt. Thank you, Chairman.
    Yes, in several ways. Just the overall initial 
relationship. When we interacted with EPA under the Obama 
administration, it was more of ``what have you been up to 
lately.'' Now it is ``what can we do to help.'' And they 
actually are allowing us to do environmental protection, and 
they have come along with us as partners, so we look forward to 
that relationship staying the same. It is about environmental 
protection, and it is about compliance at the end of the day; 
it is not about gotcha, and we really appreciate the approach 
they have taken.
    One clear example, we permitted a refinery, the cleanest 
refinery in the United States if not the Nation. We started out 
working with the EPA. Their assistance to us to make sure that 
the permit complied with the law was invaluable, and I 
appreciated that relationship. In the past, they would have 
remained silent, waited until we went out for public comment, 
and then approached us as a gotcha type moment. That is not how 
you do good government.
    Senator Braun. Thank you.
    Director Keogh.
    Ms. Keogh. Well, we too have seen the cooperation of this 
Administration, particularly in various programs, not only just 
our air program, but our water. We had many things that I would 
call on hold or stuck for decades, if not longer, in terms of 
permits, policies in our water programs, as well as our air.
    Arkansas is benefiting, however, directly from the approval 
of a State regional plan approach for regional haze visibility 
improvements now without the added $1 billion or more in 
unneeded and unnecessary controls that were mandated under a 
Federal plan from the previous Administration, so we are 
finding that Regional Administrator Anne Idsal, as well as the 
administrative staff in DC, outreach. Administrator Wheeler 
particularly has been effective in bringing us to the table 
ahead of issues, not after the issues are created.
    Thank you.
    Senator Braun. Thank you.
    This will be for the same two witnesses. As State 
regulators, you handle a lot of permits. Can you give me a 
couple particular instances where a permitting process has 
ended up being simpler and with an effective, good outcome for 
the environment?
    Mr. Glatt.
    Mr. Glatt. One really quick one is, Mr. Chairman, we 
developed a minor source permitting program for the oil field, 
making sure that we knew where the oil wells were being 
developed, who was
developing them, and the type of emissions coming off of them. 
Initially, EPA was critical of that. Once they took a look at 
that, they adopted that program and implemented it on the 
Reservation, improving environmental quality on the 
Reservation.
    So, when we are allowed to do permitting at the State 
level, it gets done quicker, in a matter of days, versus what 
we were talking weeks or not at all at the EPA.
    Ms. Keogh. Likewise, we are a State with many minor sources 
that don't really fall to the level of a Federal regulatory 
program, and Arkansas developed a unique minor source 
permitting program that we believe is protective but allows the 
flexibility for new growth in our State. This has been very 
effective, and we recently received approval of a State 
implementation plan for that after it languished for about 7 
years under a previous Administration's review, so we look 
forward to that interaction.
    We also have effective permitting programs on a number of 
key issues and concerning permits. We have been able to take 
permits that were stuck on water quality and bring them to 
final resolution, providing actually more protection through a 
permit than leaving it unaddressed through ongoing debates 
between the State and the Federal Government.
    Senator Braun. Thank you.
    Briefly here, again for the same two witnesses, when the 
EPA was developing the Clean Power Plan, did they consult with 
your States to determine feasibility, or did they ignore your 
input?
    Mr. Glatt.
    Mr. Glatt. Mr. Chairman, they did consult with us, but it 
was superficial. I did meet with the Administrator in North 
Dakota. It was zero degrees that day. I expressed to the 
Administrator it is not always this warm in North Dakota and 
that major changes in the power grid would result in true 
public health implications. So they consulted. Final rule that 
came out didn't look at all like the proposed rule, so they did 
not listen to us at all.
    Senator Braun. Thank you.
    Briefly, Director Keogh.
    Ms. Keogh. Yes. We were consulted only toward the final 
proposal. Arkansas has a base of nuclear power, but also very 
diverse energy supply, and it was important to Arkansas to have 
a plan that works for us going forward, and we are seeing great 
benefits of that flexibility using markets and technology to 
drive lower cost solutions but improved and reduced greenhouse 
gas emissions.
    Senator Braun. Thank you.
    Ranking Member Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    I guess the point I would like to open with is that one 
State's onerous regulation is a neighboring State's clean air. 
And as a downwind State, we have to take it pretty seriously 
when EPA won't enforce Federal law, won't protect our downwind 
States.
    My State Department of Environmental Management can't 
regulate a spewing power plant in Pennsylvania or West Virginia 
or Ohio. There is nothing we can do about that. And if EPA 
walks away from its responsibility, those States may think they 
have been relieved of an onerous regulation, but I live in a 
world in which I drive to work in Rhode Island, and on a 
bright, clear sum-
mer day I have heard the radio warn that the air is unsafe to 
breathe in my State; that elderly people, the people with 
breathing difficulties, that infants should stay indoors on a 
nice summer day because nobody will tell the polluting power 
plants in other States to knock it off and clean up their act.
    So, until Rhode Island is protected--and I think it ain't 
for nothing that so many of us who are here today are from 
downwind States. This isn't funny. This is making a big 
difference in our lives.
    Ms. Keogh talked about the windshield and the rearview. I 
would add one other automotive feature; I would add headlights. 
We have to have the headlights flicked on so we can see ahead 
to what is coming at us. And the headlights are science. That 
is what lets us know what is coming at us.
    So, when we have an EPA that throws legitimate scientists 
off their advisory board so they can bring industry flunkies on 
so that they can ignore scientific reports that warn very 
clearly about what is going to happen, there is no longer any 
debate about this, and the coasts are going to take a real 
beating. We are looking at several feet of sea level rise in my 
small State. We don't have much to give away, folks. Several 
feet of sea level rise is not funny, and the fact that EPA 
won't take an interest in this issue is very frustrating.
    So, I appreciate how they are not being onerous with you 
guys, but I have a different fight. I have to fight to protect 
my own State here. And what I see is very selective cooperative 
federalism. It is cooperative federalism when the interest of 
the State happens to align with the fossil fuel industry. Then 
they are all cooperative as all get-out. But when, like 
California and Rhode Island, as a CAFE standard State also, 
when the States have worked together in cooperative federalism 
and put together a rule that has stood the test of time for--
what--decades now, this Administration's approach to 
cooperative federalism is no, we're going to do what Marathon 
Oil tells us to do, and we are going to completely ignore the 
14 States that have done this for a long time.
    This isn't right. This isn't right, and it is going to come 
home to roost because you can't stop science. You can't stop 
facts. You can't stop the operation of the earth by the 
biological, chemical, and geological rules that we know. So 
this is going to come, and what it is going to show is that the 
true north for this Administration wasn't federalism; it was 
whatever the fossil fuel industry told it to do, and that, in 
my experience, has been the true north.
    But there are States, unlike you guys, who are downwind 
States, and for us it really, really matters when there is a 
power plant that won't clean up its pollution, and we can't do 
anything about it, and EPA walks away.
    There are coastal States. It is not just me. Moody's has 
now said that it is going to rate municipal debt based on 
climate and sea level risk for coastal communities.
    Freddie Mac has said that there could well be a coastal 
property values crash as bad as the 2008 mortgage meltdown. I 
lived through that. I don't want to live through that again. 
Freddie Mac isn't the Sierra Club; Freddie Mac is all about 
homes and mortgages, and they are warning about it.

   First Street has just gone all the way up the coast and in 
peer reviewed research showed that coastal property values in 
areas subject to flooding are already starting to peel off. So, 
if there is going to be a coastal property values crash, that 
is what the opening of it looks like, and that is what is 
happening.
    I already mentioned the CAFE standards. Some cooperative 
federalism, when they won't work with 14 States on a program 
that has already been working very effectively to help bring 
down pollution from automobiles.
    So, I appreciate this hearing, but I don't take EPA at all 
seriously. I think cooperative federalism is a mask, it is a 
sham. It is a way to deliver for the fossil fuel industry, and 
depending on what State you are, they will roll right over you 
in the name of cooperative federalism.
    Senator Braun. Thank you.
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman.
    Again, thanks to all the witnesses.
    Dave, I am going to follow up a little bit on how Chairman 
Braun wrapped up at the end of his time, because I would like 
to hear you put a little more meat on those bones as it relates 
to the Clean Power Plan and the collaboration and cooperation 
of the Federal Government.
    You might recall I was still on the Public Service 
Commission when the Clean Power Plan was first rolled out, and 
when we first saw the Clean Power Plan, I think we, as a State, 
we knew what the Government wanted to address, what they were 
trying to address; and as I recall, our State, along with our 
stakeholders, we were looking for pragmatic solutions to the 
same problem that the Clean Power Plan was trying to solve.
    By the way, before I forget, does anybody remember the 
Supreme Court of the United States staying the Clean Power 
Plan? We have people up here who passionately talk about the 
good old days of the Clean Power Plan that was deemed not to be 
appropriate by the Supreme Court of the United States, and we 
are still under that stay, so let's not forget that there are 
other facts that we can't ignore in the law.
    With that, Dave, if you could just help. You referenced the 
final rule and how it differed from the proposed rule. Maybe 
just tell a little more of that story, because I think it is 
important.
    Mr. Glatt. Yes, Chairman and Senator. There was a lot to 
that.
    I first will state that when the proposal came out I sat 
down with every one of the CEOs from the electric generation 
utilities. Some of them were co-ops; some were privately owned. 
Not one of those CEOs said hell no. What they said, we can do 
this, but we need time, and we need cooperation. So they sat 
down and looked at the proposal, and they said this is 
something I think we can work through, so they were actively 
looking at how do we reduce CO<INF>2</INF>, how do we start 
changing the electric generation economy or market, if you 
will.
    We sat down with EPA, and we said, you know, this is 
something I think we can work with. What came out of that was 
primarily a doubling of the reductions required, to the point 
where the CEOs said we can't work with this; basically, this 
would put us out of
business, and we would not be an entity anymore. So they went 
from cooperation, saying yes, we can do this, trying to work 
with EPA, explain to them where this was going and how they 
could make this work, going to a point where EPA came out and 
just pushed it to the limit to where they said we can't be part 
of this anymore.
    Senator Cramer. Let me follow up on that. Hadn't the 
comment period between the proposed rulemaking and the final 
rule, had we as a State, and other stakeholders throughout the 
country, had they known that this, what I call, forgive me, a 
bait and switch, had they not known that was going on, would 
they have commented differently or perhaps more aggressively 
had they thought that the EPA was a real partner in all this?
    Mr. Glatt. Yes, Senator. Actually, they were kicking 
themselves because they did not actively comment on the initial 
proposal because that was something they thought they could 
work with. What came out later was so radically different, they 
really thought they missed an opportunity without coming out 
more aggressively initially. They thought they had a 
cooperative process moving forward. I would use the same term, 
it was bait and switch. The comment I had received from an EPA 
individual, I said, what is going on here, and they said, well, 
there are winners and losers, and you lost.
    That is not how we operate, and that is not how anybody 
should operate. We are all in this together. And we are 
sensitive to the needs of the coasts, and we need to be on the 
same page, but we have to work together and not find winners 
and losers.
    Senator Cramer. Ms. Keogh, if you could comment as well. I 
know that I am not as familiar with specific situations, but 
perhaps you could elaborate.
    Ms. Keogh. Right. As Dave Glatt said, our biggest challenge 
with the Clean Power Plan was the winners and losers aspect. We 
were a State and are a State that is fundamentally focused on 
clean energy. As the recent speech of the chairman of our Joint 
Energy Committee said, the cleanest kilowatt and the cheapest 
kilowatt is the one not used. And so we focus a lot on 
efficiency in Arkansas, and we have found ways. Arkansas State 
University is now saving $20 million a year through an energy 
performance innovative grant program that we established where 
they can put tuition dollars back into education rather than 
pay for a higher use of energy to run their campuses.
    So, these are the things that we are looking for in 
Arkansas to find solutions. They are durable; they are 
reasonable; they keep rates affordable; they keep the grid 
reliable, and that is what we are looking for, and that is what 
we hope for through a power strategy for Arkansas and for the 
Nation.
    Thank you.
    Senator Cramer. Thank you.
    Thank you, Mr. Chairman.
    Senator Braun. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    By way of background, I served in the State legislature, 
was Speaker of the House in the Maryland General Assembly, was 
appointed by President Reagan to serve on the Federalism Task 
Force
and Commission. I believe in federalism; I think it is 
extremely important.
    I think the Clean Air Act represents the best example of 
federalism. In 1963, it was passed, recognizing the States with 
the primary responsibility to regulate and show what works so 
other States could copy that, exactly what California did with 
its CAFE, with its standards for autos, copied by 12 other 
States because it worked. You showed what could be done.
    There are certain areas where the States cannot act. 
Pollution knows no bound. Delaware and Maryland are downwind 
States. The Clean Power Plan rule by the Obama administration 
was a recognition that the Federal Government is the only 
entity that can control what goes on across borders.
    So I am somewhat puzzled by the support for the Trump 
administration when it has restricted the States' ability to 
act where it believes it is in its best interest to act, but 
has withdrawn the Federal support in those areas that really 
are interstate areas.
    So, Mr. Segall, let me give you a chance as to how the 
restrictions that have been imposed by the Trump administration 
are affecting the State of California in its ability to do what 
the Supreme Court has said, by the way, under the Clean Air 
Act, that carbon is a dangerous pollutant and is required to be 
regulated under the Clean Air Act. How have the Trump policies 
affected your ability to protect the carbon emissions in your 
State?
    Mr. Segall. Senator, it is profoundly concerning. What I 
should say is this is a justice question. We have talked a bit 
already about CEOs, but fundamentally this is about vulnerable 
people.
    Living in Sacramento, you sometimes can't see to the end of 
the street because of the forest fire smoke this past summer. 
We are acutely aware of the danger of climate pollution, and 
what we are seeing is a proposal essentially to flat line both 
the Federal greenhouse gas standards and to attack California's 
ability and the ability of any State that wants to adopt our 
standards to adopt our greenhouse gas emission standards, and 
this is especially strange, our zero emission vehicle 
standards, which are a criteria, or smog standards. It is 
unclear how or why they are being attacked.
    We have been here before. This was litigated twice. Two 
Federal district courts have held our authority, so it is 
really beyond the pale. The bottom line is, if this moves 
forward, we are going to see tons of excess pollution, we are 
going to see a slowdown in vehicle innovation, and we are going 
to see increased both climate risk and just generally air 
quality risk as we see additional pollution and smog pollution 
in all of our cities. It is exceptionally concerning.
    Senator Cardin. To Mr. Glatt and to Ms. Keogh, do you 
support the Trump administration's restrictions on the 13 
States that have different emission standards? Do you support 
taking away from the States the ability to act in regards to 
their vehicle emission issues?
    Mr. Glatt. Senator, I am a very strong supporter of States' 
rights and being able to address those issues within their 
State boundaries. Where I start to get a little shaky on that 
is when a State imposing under the umbrella of saying it is our 
right to control pollution in our State, starts impacting other 
States, and we have had that case on externalities.
    Senator Cardin. But my question is on vehicle emissions, 
where California has acted, and 12 other States have acted. Do 
you support their ability to do that?
    Mr. Glatt. I support their ability. I don't know if that 
has any positive impact in North Dakota.
    Senator Cardin. Well, I understand that, but if North 
Dakota decided to do it, you would believe you should have the 
right to do that, wouldn't you?
    Mr. Glatt. I would say, Senator, that is correct.
    Senator Cardin. And Ms. Keogh, do you also agree with what 
Mr. Glatt just said?
    Ms. Keogh. As I stated in my testimony, I think States and 
EPA regulate from a position of sovereignty and subordinate. We 
are an advocate, as well as North Dakota, on States' rights, 
and our attorney general has acted to defend rule of law on 
these matters. I think that is the important thing that we look 
at, is what is allowed under Federal law, and that States' 
rights apply to regulatory matters within their jurisdiction 
under the law.
    Senator Cardin. It was a simple question. Do you agree that 
California should have the right in regards to what they have 
been doing for many years now on emissions?
    Ms. Keogh. As provided under law, yes, I do.
    Senator Cardin. So maybe, Mr. Chairman, we have reached 
some consensus, that is, that what the Trump administration is 
recommending in taking away from California and 12 other 
States, including Maryland, is something that our State 
partners believe is wrong.
    Senator Braun. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Again, thank all you all for being here at the hearing.
    One thing I would like to state is that I know that we have 
a really difficult situation in Arkansas with the Trafalgar 
Road fire in Bella Vista, and I know that the ADEQ has worked 
really hard on that, also having support of the EPA, so we 
really do appreciate the efforts in that regard. You all, as 
well as EPA, have certainly kept us informed. I know that you 
two are working back and forth together. As you mentioned, when 
the administrator found out that you were going to be in town, 
wanted to meet with you, and our regional administrator also.
    So, again, I think that is really what this is all about in 
the sense of we talk about cooperation and things like that. I 
think that is a good example of that, so we do appreciate that 
effort and do appreciate your all's effort in, again, dealing 
with a very difficult situation.
    My experience, I have been with Senator Cardin in the House 
and now over here and have great respect for him. I guess my 
experience has been that, in the past, with not just the past 
Administration, but the Administrations in general, the EPA is 
all for cooperation until you want to do something different 
than what they want. That has just been the standard. I think 
that is part of government. That is why people elect us, to try 
to keep a handle on that.
    Can you comment on that, Ms. Keogh, in regard to how can we 
do a better job of working hand in hand? As Senator Cardin 
pointed out, the frustration of States wanting to do this and 
that. Can you comment on how we can do a better job of working 
hand in hand with stakeholders to develop rules and 
regulations?
    Ms. Keogh. Thank you, Senator Boozman, I am happy to do so.
    In Arkansas, we work closely with our regulated community, 
but we also work closely with our public interest groups to 
make sure that our programs do address a broader sense. EPA has 
been a true partner as we have instituted an operational 
efficiency model to streamline our permitting program and to 
increase transparency. I know working recently with Region 6, 
one of the things we have asked them to do is to reduce the 
duplication where they might grow, analyze, or replace our 
decisionmaking with their own technical staff and to reallocate 
those technical resources to helping us solve those problems 
that even go past what our capabilities are.
    So I think, Senator Boozman, you hit the nail on the head 
about the fact that we should be able to find answers by our 
collective work, rather than independent analysis that seems to 
waste money and time.
    Thank you.
    Senator Boozman. Right. Can you talk a little bit about the 
fire policy forum ADEQ helped coordinate, in particular, maybe 
your thoughts on how this approach could serve as a model for 
interagency collaboration?
    Ms. Keogh. Well, I mentioned natural disasters earlier, and 
we have talked about a specific uncontrolled fire in Arkansas, 
but this is a subject matter that I know in California is near 
and dear to their heart, but we have a number of situations 
where we believe fire is a tool that is necessary for our 
foresters to use to manage our forests to avoid those 
uncontrolled fires that result in a much larger environmental 
impact.
    Working both with our agriculture industry and our U.S. 
Forest Service, the State forestry department, we were able to 
bring together stakeholders to help get a common understanding 
of how that practice can be beneficial, but yet, at the same 
time, be implemented in a way that protects our quality, and it 
garnered speakers from EPA's Office of Research and 
Development; the director came in, as well as U.S. Forest 
Service, and I think it was a true success. Even our own Farm 
Bureau, our ag group now has a tool to inform farmers on how to 
better utilize better decisionmaking. So it shows when we bring 
the experts together, they find not only a good solution, but a 
better solution than we, as an agency, might have devised.
    Senator Boozman. I agree.
    Thank you, Mr. Chairman.
    Senator Braun. Thank you.
    Senator Carper.
    Senator Carper. Thanks so much.
    Welcome. It is great to see all of you. Thanks so much for 
joining us today.
    One of the questions that we are being asked here in the 
U.S. Senate as Democrats and Republicans is do we believe 
climate change is real, do we believe that human beings are 
contributing
to that, and do we think that Congress has some responsibility 
in addressing that.
    I would just ask each of you, Mr. Glatt, Ms. Keogh, do you 
believe climate change is real? Just a yes or no.
    Mr. Glatt. Senator, I appreciate the question.
    Senator Carper. Just a yes or no.
    Mr. Glatt. Yes and no.
    Senator Carper. Thank you so much.
    Ms. Keogh.
    Ms. Keogh. We deal with an ever changing----
    Senator Carper. Your mic is not on, ma'am.
    Ms. Keogh. I am sorry. We deal with an ever changing 
climate through our regulatory policies, and we do act in 
Arkansas----
    Senator Carper. I was just looking for a yes or no. Thank 
you, ma'am.
    Mr. Segall.
    Mr. Segall. Yes, of course.
    Senator Carper. All right.
    Mr. Glatt, do you think we, as human beings, have something 
to do with that?
    Mr. Glatt. Pardon, the question?
    Senator Carper. Do you think we, as human beings, have 
something to do with climate change?
    Mr. Glatt. Senator----
    Senator Carper. Just a yes or no.
    Mr. Glatt. Yes, and we are doing something about it, yes.
    Senator Carper. Thank you.
    Ms. Keogh.
    Ms. Keogh. We are taking actions to reduce our man-made 
emissions so that we can derive better----
    Senator Carper. Is that a yes?
    Ms. Keogh. We believe that----
    Senator Carper. OK.
    Mr. Segall.
    Thank you.
    Mr. Segall.
    Mr. Segall. Yes. And I would add that it is beyond a five-
sigma level of proof, they just reported the other day. It is 
unquestionable.
    Senator Carper. Mr. Glatt, do you think Congress has some 
responsibility in addressing this challenge?
    Mr. Glatt. Senator----
    Senator Carper. Just a yes or no.
    Mr. Glatt. Congress has a role, but the difficulty is----
    Senator Carper. Thank you very much.
    Ms. Keogh. Ms. Keogh. Thank you.
    I don't mean to be rude, but I don't have a lot of time.
    Does Congress have a responsibility in addressing this? Do 
we have a shared responsibility in addressing this? Just a yes 
or no.
    Ms. Keogh. I believe this is a science decision, not so 
much a political decision, but I do believe there is a role to 
play in making sure that we are all treated----
    Senator Carper. Thank you, ma'am.
    Mr. Segall.
    Mr. Segall. This is a most fundamental responsibility. It 
is an existential threat to the country.
    Senator Carper. I live in a State called Delaware, east of 
here, and when I was Governor of Delaware we were out of 
attainment for a number of clean air requirements, and it is 
not because of what we were doing in our States. Ninety percent 
of our pollution in Delaware comes from outside of our State. I 
could have shut down the State of Delaware, all the cars, 
vehicles off the road, shut down every business. We would still 
have been out of attainment.
    Meanwhile, up in Pennsylvania there are utilities, coal 
fired utilities that are operating, and they have scrubbers, 
they have equipment of scrubbers on their power plants, and 
they don't use them. They don't use them. We have a situation 
up in Pennsylvania with three. There is a situation in West 
Virginia, I think there is another over there. They don't use 
them.
    States have the opportunity to petition, called Section 
126, to do something about that, and to say, EPA, we can't make 
Pennsylvania turn on their pollution control, we can't make 
West Virginia turn on their pollution control devices. EPA, why 
don't you help us, kind of like Golden Rule, treat other people 
the way you want to be treated. That is one of the problems 
that we face. I just want you to feel what we face, what we 
have to put up with at the end of America's tailpipe.
    The greatest source of carbon emissions in our country 
comes from mobile sources. Andrew Wheeler said that he was all 
for a 50 State deal, and when it came time to actually 
negotiate a 50 State deal with California and 13 other States, 
he was nowhere to be seen.
    Mr. Segall, any comments that you have on this.
    Mr. Segall. Yes, that is true. It is appalling. This is a 
program we worked on for decades under Democratic and 
Republican administrations. It is one that is working well. It 
is one that is saving lives. One would hope that the 
Administrator of the EPA would want to preserve it and would 
recognize the importance of the coal regulatory State 
sovereigns. They haven't, and that is a shocking departure from 
practice and endangers a lot of people.
    Senator Carper. Mr. Segall, the California Resources Board 
said, ``The administration broke off communications before 
Christmas and never responded to our suggested areas of 
compromise or offered any compromise proposal at all.'' Can you 
tell us more about this Administration's efforts to work with 
California, compared to how the Obama administration did so?
    Mr. Segall. Yes. Under the Obama administration we worked 
extensively on the technical details. We dug in. Again, this is 
a science question. We had a 12,000-page report. Everything was 
working fine.
    This Administration issued a sketchy determination in 
response to a presidential Tweet that was just a few pages long 
that blew up the entire program. That has been consistent with 
their negotiating style. Folks in the room often aren't even 
familiar with the core technical details of their programs.
    Senator Carper. I will finish with this. I was a naval 
flight officer during the Vietnam war, stationed for a while in 
San Diego as a midship in Long Beach, later on at Moffett 
Field, California. I
like to run. I love to run outside. There were days where I ran 
outside I did a lot more damage to my lungs than I did good.
    And the reason why California has asked years ago for the 
ability to have more rigorous standards, shared by States like 
Utah because of the geography in those States and the pollution 
that gathers between the mountains, they asked for some special 
abilities to tighten things up. That is what they have had for 
years. The auto companies don't want to build one car for 
California and 49 States, a different model of the same car. 
They didn't want that; they want a 50 State deal.
    Why we don't work with them and with California to make 
that happen is beyond me. This is something that is good for 
the planet, good for our air, good for industry. It just makes 
no sense.
    Thank you.
    Senator Braun. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Segall, thank you for being here, and we thank 
California for its leadership on this. Massachusetts is a State 
that follows California. Rhode Island follows California. 
Delaware follows California. We are all in on your efforts 
here. Administrator Wheeler proposed new fuel economy emissions 
rule that would wrench away California's longstanding ability 
to set its own standards and allow our States to follow, 
because an attack on California is an attack on all of us, and 
we feel it as an attack.
    Has California's Clean Air Act waiver for vehicle emission 
standards ever been revoked?
    Mr. Segall. No, that has never happened.
    Senator Markey. It has never happened. So the assault on 
State level standards means more money spent by consumers on 
gasoline, more oil imported from the Middle East, more carbon 
pollution in the atmosphere, and more uncertainty for States 
and car companies.
    Mr. Segall, with all these lose-lose outcomes, who would 
you say is the winner if Trump wins through his EPA 
Administrator, Wheeler? Who is the winner in all this?
    Mr. Segall. This is purely a gift to oil companies.
    Senator Markey. Oil companies.
    Mr. Segall. Yes.
    Senator Markey. So oil companies are just doing cartwheels 
with the happiness that they have about how much lower the fuel 
economy standards will be.
    Mr. Segall. Oh, yes. We see enormous increases in people 
being made to buy their product. What is really going on here 
is a subsidy program to oil at the expense of State sovereignty 
and public health.
    Senator Markey. When I was in the House, I was the author 
of the fuel economy standard law in 2007, along with Senators 
over here, partnered with Nancy Pelosi. We got that done, and 
that is what was used with the California waiver to promulgate 
the 2012 standards. I am very proud of that, and it is still 
the largest single reduction of greenhouse gases of any law 
ever passed in any country in the world.
    So, like many other things, Trump is just going to side 
with the Koch Brothers, side with the oil industry in general. 
It is all part
of a pathological pattern where he is a climate denier, gives 
his State of the Union Address for an hour and 20 minutes, 
doesn't mention climate change, names a fossil fuel lobbyist to 
be the head of the EPA.
    So, Mr. Segall, will a challenge to California's ability to 
set its own strong standards under the Clean Air Act mean more 
uncertainty for consumers and auto manufacturers?
    Mr. Segall. Senator, it will. What this will drive is 
massive litigation and a massive need by the States to take 
every other action at their disposal to make up those tons. 
This isn't going to lift anybody's regulatory burden; it is 
going to require extensive State action to get where we need to 
go, and in the meantime, it is going to make it harder for the 
auto industry, especially the American auto industry, to 
compete globally.
    Senator Markey. So this Section 177.202-209 authority in 
the Clean Air Act, I said on the floor there is no intention in 
having a 2007 law in any way undermined that authority which 
you have, and it has also been reaffirmed twice by courts that 
you have this authority, California has this authority. So we 
are setting up just a massive, prolonged litigation with the 
whole world looking at us as we try to preach temperance from a 
barstool.
    We are telling other countries please reduce your 
greenhouse gases, and Trump is the Denier-in-Chief, and it is 
just sending the wrong message to the rest of the world as 
these apocalyptic events across the planet are becoming more 
and more intense as we are just seeing incredible tornados 
across the south unprecedented in terms of their damage. But 
again, unfortunately, a preview of coming attractions of what 
is going to happen, and it will even be worse in the years 
ahead.
    In your testimony you mention disagreements between EPA and 
National Highway Transportation Safety staff working on the 
proposed new rule. A former EPA official even said the 
Department of Transportation ``cooked the books'' to make sure 
they could produce the numbers to justify the awful rule.
    Mr. Segall, didn't an EPA analysis find that this rule 
would actually cause an additional 17 fatalities a year, 
despite the Administration's argument that the rule will save 
lives by keeping drivers off the road?
    Mr. Segall. Senator, I believe that is right, and I would 
say I have never before seen an EPA rule where EPA's own staff 
was so thoroughly cut out of the process and filed documents 
explaining the rule was wrong.
    Senator Markey. So this is a classic example of State and 
Federal Government cooperation, and Trump and his oil company 
cronies are seeking to cheat on this test, including the 
fatalities that are caused, but also the damage to our planet.
    Senator Whitehouse and I, we happen to live with the second 
fastest warming body of water on the planet, the Gulf of Maine. 
Except for the Arctic, it is the worst, and we are poised to 
see damage that is going to be absolutely catastrophic for us, 
but it is also true for the whole rest of the planet.
    I thank California, I thank you for all your efforts. We 
stand with you, and we will fight with you.
    Mr. Segall. Thank you.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Braun. Thank you, Senator Markey.
    We have time remaining, and as I run this Subcommittee I am 
going to use it to the full extent. We don't meet often enough, 
and I think there is probably more to be said, so anyone that 
wants to follow up with an additional 2, 2 and a half minutes, 
3 minutes, I am going to start here and then allow everybody 
else to do likewise.
    Mr. Segall, California's position that the standards issued 
in 2012 by the Obama administration should not be changed, do 
you agree with that, that what we had in 2012 through the Obama 
administration should not be changed?
    Mr. Segall. I do, with a caveat. When we went through the 
12,000 page technical review, Senator, we actually determined 
the standards were, if anything, a little too weak. We 
maintained them at the same level, basically maintained our 
national program, but they underrepresent what the industry can 
do.
    Senator Braun. Thank you. I think in the assertiveness of 
that statement I wonder if that really is implicit, that there 
is room for negotiation, and I will quote somebody from your 
State, from Mary Nichols, head of the California Air Resources 
Board: ``California will take all actions to ensure that the 
smart standards we developed in partnership with the auto 
industry to cut greenhouse gas emissions from vehicles stay in 
place.''
    Mr. Segall, in his speaking about the Obama era standards 
that are feasible and beneficial and that we need to review 
them, was based upon a single presidential Tweet. I would tend 
to disagree with that as well. The Alliance of the Automobile 
Manufacturers sent a letter to the EPA, and the letter said, 
``If left unchanged, those standards could cause up to 1.1 
million Americans to lose jobs due to lost vehicle sales, and 
low income houses would be hit the hardest.''
    I ask for unanimous consent to enter this into the record.
    [The referenced information follows:]



[[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Senator Braun. Ranking Member Whitehouse, do you have an 
additional comment?
    Senator Whitehouse. Mr. Segall, you used the word capture 
in your testimony. Could you elaborate on what you mean? I 
assume you are describing the concept of regulatory capture or 
agency capture.
    Mr. Segall. I am, and that concept essentially speaks to 
the point where a regulator becomes so interwoven with the 
entities it is regulating that it stops looking critically at 
the evidence.
    Actually, the letter that the Chairman has entered into the 
record is a good example of this. The auto industry, after some 
relief, it is true, they have been pressing for that for years, 
they were rejected on the record just months before in a real 
analysis. What we are seeing in this sudden swerve has a lot to 
do with the fact that EPA is now run primarily by fossil fuel 
lobbyists. Their view is narrow, their economic interests are 
narrow, and their ability to actually rigorously look at the 
evidence is clearly limited.
    And you don't have to take my word for it; we have gone to 
court again and again on these rollbacks. We keep winning 
because EPA isn't grounding its actions in the law or the 
facts, and to me, that is a strong indication that what we are 
seeing are politically driven choices, not proper environmental 
decisions.
    Senator Whitehouse. I hear that Marathon Oil and a few 
fossil industry front groups were the driving force between the 
CAFE standards rollback. Do you have any information from your 
perspective on the California Air Resources Board about that?
    Mr. Segall. We believe that reporting. We think that is 
right. This looks very much--given that the science cannot 
possibly support what has been proposed, and the auto industry 
themselves have said that they don't want it. Who wants this? 
It is the oil industry.
    Senator Whitehouse. Like the old story about the tortoise 
on top of the fence post. You know it didn't climb there; 
somebody had to put it there when its behavior is that weird.
    You mentioned in your testimony that the Clean Power Plan, 
as proposed by this fossil fuel industry-run EPA would 
actually, to quote you, ``incredibly actually increase power 
sector emissions on its own admission.'' When you say on its 
own admission, what do you mean?
    Mr. Segall. I mean EPA's own impact analysis. They project 
increases in most of the major pollutants so bad that they also 
propose major revisions to the core permitting programs to 
accommodate this massive pollution. It is quite remarkable.
    Senator Whitehouse. So, if you were looking at that Clean 
Power Plan, and you were looking at it as a means for trying to 
actually reduce carbon emissions, it would appear to be rather 
deliberately going in the opposite direction, would it not?
    Mr. Segall. It is a gift to the coal industry at the cost 
of people's lungs.
    Senator Whitehouse. Thank you.
    Senator Braun. Senator Cramer.
    Senator Cramer. I have 20 minutes, but I will try to say a 
few things in 2. In fact, I may shift completely to a very 
pragmatic issue.
    Dave, it has been really cold in North Dakota, has it not, 
this winter? One of the coldest winters in decades.
    Mr. Glatt. That is correct, Senator.
    Senator Cramer. In a long time. Last week--maybe it was 2 
weeks ago, could have been any week in the last 5 or 6--is it 
not true that in the Midwest, the integrated resource planning 
that involves--one of concerns you raised early on in your 
testimony, involves the availability of a robust energy on the 
grid, electricity, was at stake. And why was that?
    Mr. Glatt. The demand was so great during this cold spell.
    Senator Cramer. And when we have high demand, and the grid 
relies on energy sources that are not reliable, intermittent, 
what happens but that there is not enough supply, and that is 
exactly what happened. The people of Minnesota actually 
complained that their electricity wasn't as robust as a result 
of what always happens, or at least 90 percent of the time 
happens when it is really, really cold, is the wind does not 
blow, and wind turbines don't turn, don't spin; and when wind 
turbines don't spin, they don't provide warmth. And by the way, 
that didn't even consider the fact that gas companies were 
asking people to curtail their use of natural gas because they 
needed to get this other fuel to dispatchable electricity.
    My point of all this is to tell you that I have great 
empathy with what you were saying, Mr. Segall, with regard to 
States' rights and emission standards, particularly 
transportation emissions. I also know that there can 
occasionally be conflicts between the interstate commerce 
clause and other cooperative federalism, and that this stuff is 
never as simple as any one side would like it to be.
    But I also know that--I just think that when the EPA--the 
Clean Power Plan in particular--when they came out with not 
just a big bait and switch in terms of the standard, the 
emission allowance, which I thought was very unfair and 
unreasonable, but they were very prescriptive, as well, and 
what I worry about is whenever we become overly prescriptive or 
we broaden jurisdictions outside the fence line--as an example, 
that was one of the early blunders of the Clean Power Plan, was 
to go beyond EPA's legal authority--that we don't allow the 
type of innovation that I believe exists. And I think you could 
make a point of that, I think you could, and I certainly think 
you could. I just think we could have a better conversation 
sometimes about this.
    My time is well up, but if anybody wants to comment, that 
is just my rambling for the moment, Mr. Chairman.
    Mr. Segall. Senator, I would just say that California is a 
great example of that. We are moving rapidly toward 100 percent 
renewable grid, and what we are finding is intermittency is 
much less of a problem then we would have thought because 
energy storage is replacing both gas plants, and if we balance 
that out. And it has been great to see how well Americans can 
innovate when we ask them to do it.
    Ms. Keogh. I would just add that, as an engineer, I am a 
full believer that technology will lead the day in terms of 
environmental excellence, and I think we have seen that in the 
last few years, and I hope that we can continue to show that 
technology is the answer versus more regulation.
    Thank you.
    Mr. Glatt. And just to add up finally that I agree with 
that. We are seeing the market in the clean power plant vacuum 
change. We are seeing more renewable, less coal, less 
emissions, and that is without any regulations, so it tells me 
that at least the corporations in North Dakota understand that 
things have to change, and they are doing that, and it is 
innovation, it is new technology, and spending money to move 
forward.
    Senator Braun. Quick note: members can submit follow up 
questions for the record; it will be open for 2 weeks.
    I want to thank all of the witnesses; it was a very good, 
robust conversation, and I think Senator Whitehouse and I are 
both in agreement that the topics of federalism and the 
environment need to be vetted. We need to take the full hour 
and a half to do it, and we hope to have this Committee as a 
good forum to do it.
    Thank you so much.
    The hearing is adjourned.
    [Whereupon, at 11:31 a.m. the Committee was adjourned.]

                                 <all>
</pre></body></html>
